-      On September
Division a         '
                              CLOSEOUT FOR M93090047

                           1993, Drs.
                              )         ,
a generally accessible electronic bulletin
                      an employee of the




&rough a cooperative agreement with NSF.
                                                   anda-&NSF




                                                    (

                                                             -
                                                               t
                                                                                  staff in the
                                    provided OIG with a copy of message that had appeared on
                                                                    tten by the complainant,


                                                                        h         e Department)
                                                    (the Center). The Center is governed by the
                                                     (the Corporation) and is supported, in part,
                                                                                 -~ -




        The complainant alleged that the management practices of the Center, and specifically
those of the Department, were abusive to employees, that Department employees were fired for
political rather than performance reasons, that the Corporation had formed a committee to
monitor employee speech and internal activities, and that the Corporation management was
corrupt, engaging in lavish retreats and a questionable real estate deal.

       OIG interviewed the complainant to obtain sufficient details to pursue the allegations.
OIG then interviewed the relevant program staff, employees of the Department, the Corporation,
and the Corporation's internal auditor assigned to investigate the allegations.

        For his independent report the internal auditor interviewed the complainant and reviewed
the personnel files for the individuals identified by the complainant. The auditor found that these
individuals had been released as part of a reduction in staffmg, fired for documented reasons,
or demoted for similarly documented, valid reasons. The auditor found that the expenses for
the retreats were well within acceptable limits and that any personal expenditures incurred during
the retreats were paid by the appropriate participant; neither Corporation nor federal funds
covered these expenses. The real estate deal was a well-publicized and scrutinized transaction.
The fmancial transactions were reviewed at the time and none were questionable; similarly the
internal auditor's review did not uncover any financial impropriety by the Corporation.

        OIG found that many of the issues raised by the complainant stemmed from the newly-
hired Department Director's efforts to refocus the Department's research and improve staffmg
and the Corporation's efforts to sensitize its employees to actions that might be construed as
sexual harassment. OIG found that, prior to his hiring, the Director had filed a proposed plan
for his changes with the Corporation. The plan had been reviewed by the Corporation and the
Director subsequently hired. A panel commissioned to review the Center echoed the newly-
hired Director's desire to revitalize and refocus the Department research in its comments about
the Center. The Director's staffing efforts were reviewed in his plan and guided by the
recommendations of a site review team.

      Highly publicized cases of sexual harassment not related to the Corporation raised
concerns among its employees about proper behavior in the work place. The corporation

                                           Page 1 of 2
                              CLOSEOUT FOR M93090047
responded by forming a committee to address sexual harassment issues. That committee
engaged an expert to present a several-hour seminar on sexual harassment issues. The seminar
was repeated several times to provide all the employees with an opportunity to attend. The
complainant objected to these seminars, viewing them as a waste of resources more appropriately
spent on research support. NSF supports institutions' efforts to ensure gender and racial equality
in the work place.

        OIG found that the complainant's allegations were developed from inaccurate conclusions
formed on the basis of partial information. OIG could not find any information to support these
allegations and closed this case.



                               111   7 / e

Staff Scientist, Oversight

Concurrence:

                                                    .   .

                                                                    -                IS / y 3
Donald E. Buzzelli J U                              James J. ~ d o l e n i k
Deputy Assistant Inspector General for              Assistant Inspector General for Oversight
Oversight



L. Nancy ~irnbaum
Assistant Counsel to the Inspector General

cc:    Signatories
       Inspector General




                                             Page 2 of 2
